4
|

C@QCKLE

Le g al B riefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL, PETITIONER,
v.
AGNES MORRISSEY-BERRU, RESPONDENT.

ST. JAMES SCHOOL, PETITIONER,
Vv.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL, RESPONDENT.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE ETHICS AND PUBLIC POLICY
CENTER IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
MATTHEW T. NELSON
Counsel of Record
CONOR B. DUGAN
WARNER NORCROSS + JUDD LLP
1500 Warner Building
150 Ottawa Avenue NW
Grand Rapids, MI 49503
(616) 752-2000
mnelson@wnj.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 10th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

Sen i E Cilite Qu diew-h, Ghle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 30415
SERVICE LIST

Attorney for Petitioners

Eric Christopher Rassbach

Counsel of Record

The Becket Fund for Religious Liberty
1200 New Hampshire Avenue NW
Suite 700

Washington, DC 20036

(202) 955-0095
erassbach@becketlaw.org

Attorney for Respondents

Jennifer Anne Lipski

Counsel of Record

JML Law

5855 Topanga Canyon Boulevard
Suite 300

Woodland Hills, CA 91367

(818) 610-8800
jennifer@jmllaw.com
